<html>
<title> - MARKUP OF COMMITTEE RESOLUTIONS 115-6, 115-7, AND 115-8</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                 MARKUP OF COMMITTEE RESOLUTIONS 115-6,
                            115-7, AND 115-8

=======================================================================

                                 MARKUP

                               BEFORE THE

                           COMMITTEE ON HOUSE
                           
                             ADMINISTRATION
                             
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

               Held in Washington, DC, February 27, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



                       Available on the Internet
                            www.govinfo.gov
                            
                            
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-364                  WASHINGTON : 2018                                  
                            
                            
                            
                            
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia


        MARKUP OF COMMITTEE RESOLUTIONS 115-6, 115-7, AND 115-8

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:25 p.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, 
Loudermilk, and Brady.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director; Cole Felder, Deputy General Counsel; Dan 
Jarrell, Legislative Clerk; Amanda Anger, Professional Staff; 
Erin McCracken, Communications Director; Jamie Fleet, Minority 
Staff Director; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's Committee meeting. A quorum is 
present, so we may proceed. The meeting record will remain open 
for 5 legislative days so that Members may submit any materials 
that they wish to be included therein.
    There are three items that we have on the docket today: 
First, Committee Resolution 115-6, the Committee's views and 
estimates on the fiscal year 2019; second, we have Committee 
Resolution 115-7, a measure to amend the regulations 
collectively known as the Members' Congressional Handbook; and, 
third, Committee Resolution 115-8, a measure to amend the 
regulations collectively known as the Committee Congressional 
Handbook.
    The first item before us is Committee Resolution 115-6, the 
Committee's views and estimates for fiscal year 2019. The 
Congressional Budget Act of 1974 requires Congressional 
Committees to submit to the Committee on the Budget their views 
and estimates on programs within their jurisdictions.
    The views and estimates we are making up today highlight 
the Committee's continued work to conduct oversight and 
identify future potential savings at the Federal Election 
Commission. As the Committee has stated previously, one way to 
reduce the FEC's budget is to eliminate the Presidential 
Election Campaign Fund. The Committee continues that 
recommendation. In addition, the views and estimates highlight 
the ongoing concerns the Committee has with the Election 
Assistance Commission.
    The views and estimates reflect the Committee's support for 
the ongoing efforts to strengthen the cybersecurity platforms 
within each of the legislative branch entities and agencies. 
Equally important, the Committee supports the ongoing efforts 
in the House to ensure it has the resources and assistance in 
the event of a cyber attack.
    Furthermore, the views and estimates recognize the 
importance of providing resources to address the issue of 
sexual harassment. As I have said previously, one case of 
sexual harassment is one too many. We need to ensure that the 
House's training program, which will begin this April, is 
effective in educating and preventing discrimination and 
harassment.
    Finally, the views and estimates recognize the ongoing need 
to secure and protect Members, their staffs, their 
constituents, and, of course, the public. The events in the 
summer of 2017 and the corresponding increase in threats 
against Members demonstrate security remains paramount. The 
Committee supports funding for the United States Capitol Police 
and the House Sergeant at Arms for these efforts.
    The second measure before us, Committee Resolution 115-7, 
clarifies certain provisions and makes additional technical 
corrections to the Members' Congressional Handbook, and I will 
mention a few. First, the Committee Resolution incorporates the 
prohibitions contained in H. Res. 724, which we passed earlier 
this month. H. Res. 724, among other things, prohibits the 
Members' representational allowance from being used for 
settlements or for an award in connection with conduct 
prohibited by the Congressional Accountability Act.
    The Committee resolution also clarifies the use of the MRA 
for security, including allowing prior year funds to be 
obligated for security furnishings and enhancements, clarifies 
the role of the House Sergeant at Arms in approving noncapital 
security enhancements; clarifies responsibility for costs 
associated with security enhancements considered capital 
improvements; clarifies payments for security personnel are an 
ordinary and reimbursable expense; and, lastly, clarifies 
security items exceeding $500 must be added to office 
inventory.
    Finally, the third measure on our docket, Committee 
Resolution 115-8, mirrors the changes in the Members' 
Congressional Handbook as it relates to settlements and awards 
under the Congressional Accountability Act. The measure 
prohibits Committee funding from being used for settlements or 
awards in connection with conduct prohibited by the 
Congressional Accountability Act.
    I would now like to recognize my colleague and the 
Committee's Ranking Member, Mr. Brady, for the purpose of 
providing an opening statement.
    Mr. Brady. Thank you, Mr. Chairman, for calling this 
business meeting today.
    I support the three Committee resolutions before us. 
However, we do intend to file minority views on the proposed 
views and estimates on the President's budget, as we do have 
some well-known disagreements about the Election Assistance 
Commission and the Federal Election Commission.
    And, of course, we support the ban on using the MRA or 
Committee funds to settle sexual harassments and discrimination 
cases. That is a very long overdue commonsense change, and I 
appreciate your bipartisan work on that. I encourage my 
colleagues to support the proposal before us, and I yield back 
the balance of my time.
    The Chairman. The gentleman yields back.
    Does any other Member wish to be recognized for the 
purposes of an opening statement?
    Seeing none, I now call up and lay before the Committee 
Committee Resolution 115-6, the views and estimates for fiscal 
year 2019.
    Without objection, the first reading is dispensed with, and 
the resolution is considered read and open for amendment.
    [The resolution follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    The Chairman. Would any Member like to make a statement?
    Would any Member like to offer an amendment to the 
resolution?
    Seeing none, without objection, the amendment will be 
considered as read.
    Are there any other Members who wish to be recognized on 
the amendment?
    There are none.
    So the question is on the amendment offered to the views 
and estimates for fiscal year 2019--the question is on the 
motion to adopt Committee Resolution 115-6, the views and 
estimates for fiscal year 2019.
    The question is on the motion.
    All of those in favor, signify by saying aye.
    All of those opposed, signify by saying nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Does any Member wish to submit supplemental or minority 
views?
    Mr. Brady. Yes, Mr. Chairman, the minority does.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The Chairman. Pursuant to clause 2 of rule XI, the Member 
is entitled to 2 additional calendar days to file such views in 
writing and signed by that Member and file with the clerk of 
the Committee.
    I now call up and lay before the Committee Committee 
Resolution 115-7, a measure to clarify and make technical 
corrections to the Members' Congressional Handbook.
    Without objection, the first reading is dispensed with, and 
the Committee resolution is considered read and open for the 
Committee.
    [The resolution follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Would any Member like to make a statement?
    Would any Member like to offer an amendment to the 
resolution?
    If there are no amendments, I move the Committee to adopt 
Committee Resolution 115-7.
    The question is on the motion.
    All those in favor, signify by saying aye.
    All those opposed, signify by saying nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Does any Member wish to submit supplemental or minority 
views?
    I now call up and lay before the Committee Committee 
Resolution 115-8, a measure making technical corrections to the 
Committee Congressional Handbook.
    Without objection, the first reading is dispensed with, and 
the resolution is considered read and open for amendment.
    [The resolution follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Would any Member like to make a statement?
    Would any Member like to offer an amendment?
    If there are no amendments, I move the Committee adopt 
Committee Resolution 115-8.
    The question is on the motion.
    All those in favor, signify by saying aye.
    All those opposed, signify by saying nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Does any Member wish to submit supplemental or minority 
views?
    Seeing none, for all of the matters considered today, I 
would ask unanimous consent that the staff be authorized to 
make technical and conforming changes, if necessary.
    Without objection, so ordered.
    That concludes today's markup.
    Without objection, the markup is adjourned.
    [Whereupon, at 2:34 p.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
